<html>
<title> - GLOBAL AL-QAEDA: AFFILIATES, OBJECTIVES, AND FUTURE CHALLENGES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
     GLOBAL AL-QAEDA: AFFILIATES, OBJECTIVES, AND FUTURE CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 18, 2013

                               __________

                           Serial No. 113-44

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
81-977                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="81e6f1eec1e2f4f2f5e9e4edf1afe2eeecaf">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Seth Jones, Ph.D., associate director, International Security and 
  Defense Policy Center, RAND Corporation........................     3
Frederick W. Kagan, Ph.D., Christopher DeMuth chair and director, 
  Critical Threats Project, American Enterprise Institute........    20
Mr. Thomas Joscelyn, senior editor, The Long War Journal, 
  Foundation for Defense of Democracies..........................    29
Thomas Hegghammer, Ph.D., Zuckerman fellow, Center for 
  International Security and Cooperation, Stanford University....    44

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Seth Jones, Ph.D.: Prepared statement............................     6
Frederick W. Kagan, Ph.D.: Prepared statement....................    22
Mr. Thomas Joscelyn: Prepared statement..........................    31
Thomas Hegghammer, Ph.D.: Prepared statement.....................    46

                                APPENDIX

Hearing notice...................................................    74
Hearing minutes..................................................    75
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas, and chairman, Subcommittee on Terrorism, 
  Nonproliferation, and Trade: Prepared statement................    76


     GLOBAL AL-QAEDA: AFFILIATES, OBJECTIVES, AND FUTURE CHALLENGES

                              ----------                              


                        THURSDAY, JULY 18, 2013

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The committee will come to order. Without 
objection, all members may have 5 days to submit statements, 
questions, extraneous materials for the record subject to the 
length limitation in the rules of the committee.
    We have been told that al-Qaeda is on its last legs, that 
al-Qaeda died with bin Laden, and that whatever remnants of al-
Qaeda that remain are too weak for us to be concerned about. 
The purpose of this hearing today is to see whether that is a 
correct statement or an incorrect statement.
    These locations in red are where al-Qaeda operated prior to 
9/11. Since September 11th occurred, we are now looking at the 
global al-Qaeda today. The red is al-Qaeda. And the blue is 
other terrorist groups that operate in these regions of the 
world, primarily the Middle East and North, Western, and 
Eastern Africa. And our purpose of this committee hearing today 
is to go into depth about al-Qaeda's presence and to some 
extent, other terrorist groups as well.
    I will submit the rest of my statement for the record, and 
I will turn over to the ranking member, Mr. Sherman from 
California, to hear his remarks in his opening statement.
    Mr. Sherman. Thank you, Mr. Chairman, for your brevity. It 
will not be reciprocated. [Laughter.]
    Mr. Poe. You have 5 minutes.
    Mr. Sherman. Thank you for your maps. I will notice that 
the first map did not show Iran in blue as an area of non-al-
Qaeda terrorist base. Certainly, Iran was as worthy of being 
marked in blue on your first map as on your second.
    Al-Qaeda has failed to carry out a major attack in the 
United States since 9/11. However, the danger posed by al-Qaeda 
to the United States is still significant. Al-Qaeda's structure 
has become more decentralized, less of an integrated 
corporation, closer to a franchise. Its chief terrorist 
activity is now being conducted by its local and regional 
affiliates.
    Over the past few years, al-Qaeda's core in Pakistan has 
been weakened. We have killed four of the top five leaders. 
And, of course, the top of their leadership changes from time 
to time as some are dispatched to where they ought to go.
    On May 23 of this year, the President outlined tighter 
rules for drone strikes. The President discussed how our system 
to make an effort to dismantle terrorist organizations must 
continue. He stated that this war, like all wars, must end, but 
the intensity of this war is less than virtually all of the 
others that we have faced and its length is longer than 
virtually--well, than certainly all of the wars we have faced. 
Obama has announced his intention to work with Congress to 
refine and ultimately repeal the 2001 authorization for use of 
military force, which is now 12 years old, is laudable but even 
while our activities in Afghanistan wind down, terrorism 
directed at the United States and its allies remains a 
significant threat.
    It is true, as the President says, that not every 
collection of thugs that uses the al-Qaeda name poses a 
credible threat to the United States, but it is also true that 
the war against terrorism is not over.
    The fastest growing al-Qaeda affiliate is in Syria. Jabhat 
al-Nusra is emerging as the best motivated, best trained, and 
best equipped force fighting the Assad regime. The modern 
umbrella group, the Free Syrian Army, has been losing fighters 
and capacities to Jabhat al-Nusra. And Jabhat al-Nusra has even 
taken to assassinating competing rebel commanders. I will be 
interested in learning from our panelists what role Qatar and 
the Saudis have played in funding Jabhat al-Nusra and other 
questionable groups in Syria.
    The Alawite community in Syria is in the cross-hairs of 
Sunni extremists. And we have to arm the best elements in Syria 
but do so quite carefully. In March of this year, I joined with 
Eliot Engel, the ranking member of this committee, and House 
Intel chairman Mike Rogers in introducing the Free Syria Act, 
which would authorize the President to provide lethal 
assistance to carefully vetted Syrian opposition groups.
    Through al-Qaeda and the Islamic Maghreb, we have seen 
chaos in Libya since 2011. We have seen it spill into 
surrounding regions, including the Tuareg fighters, who 
supported Gaddafi and have taken weapons into Mali. And then we 
saw those weapons in the hands of those who killed three 
Americans in Algeria.
    It is, of course, the most jingoistic and politically 
popular thing to say that America should take the lead in 
everything. The fact is France took the lead in Mali. We 
supported. And we have to get away from the natural attractions 
of Machismo and realize this is a complicated conflict in which 
sometimes we will play a secondary role in some of the 
theaters.
    This will be a long effort. I doubt there will be any 
triumphal end to this war. We have to manage this problem and 
do so at the least cost of lives, treasure, the least cost to 
our privacy, and the least cost to our other competing foreign 
policy objectives.
    Eventually, even those who have been told that objectives 
can be achieved over a period of many decades through terrorism 
will come to realize that al-Qaeda methods and al-Qaeda 
ideology will not improve the world and will not bring about a 
worldwide caliphate, but until we win this war, it will 
continue.
    I yield back.
    Mr. Poe. The gentleman yields back the remainder of his 
time. All other members of the subcommittee who wish to make an 
opening statement, I am asking that they submit those for the 
record.
    I will introduce each witness and then give them time for 
their opening statements before questions. Dr. Seth Jones is 
Associate Director of International Security and Defense Policy 
Center at the RAND Corporation as well as an adjunct professor 
at Johns Hopkins University School for Advanced International 
Studies. He specializes in counterinsurgency and 
counterterrorism, including a focus on Afghanistan, Pakistan, 
and al-Qaeda.
    Dr. Fred Kagan is Christopher DeMuth chair and director of 
the Critical Threats Project at the American Enterprise 
Institute, previously an associate professor military history 
at West Point. Dr. Kagan is a contributing editor at the Weekly 
Standard and has written for Foreign Affairs, the Wall Street 
Journal, and other periodicals.
    Mr. Thomas Joscelyn is a senior fellow at the Foundation 
for Defense of Democracies and a senior editor of the Long War 
Journal. Mr. Joscelyn is also a frequent contributor to the 
Weekly Standard and was a senior counterterrorism adviser to 
Mayor Giuliani during the 2008 Presidential campaign.
    Dr. Thomas Hegghammer is the Zukerman fellow at Stanford 
University Center for International Security and Cooperation 
and a senior research fellow at the Norwegian Defense Research 
Establishment in Oslo. Dr. Hegghammer frequently advises 
government agencies in North America and in Europe on 
counterterrorism issues.
    I want to welcome all four of our panelists here today. 
Each of you have 5 minutes. Your statements have already been 
made part of the record. And we will stick to the 5-minute rule 
after each of you have testified. And members of the committee 
will ask you questions. Dr. Jones, you are first.

      STATEMENT OF SETH JONES, PH.D., ASSOCIATE DIRECTOR, 
    INTERNATIONAL SECURITY AND DEFENSE POLICY CENTER, RAND 
                          CORPORATION

    Mr. Jones. Thank you, Chairman Poe, Ranking Member Sherman, 
and other members of the committee. Thanks for inviting me and 
a really esteemed crew here on global al-Qaeda.
    I would first point out that I think the growth of al-
Qaeda's affiliate in Syria and other recent developments make 
this hearing particularly timely and important.
    In reviewing al-Qaeda's evolution since 1988, I am going to 
make three arguments in my opening remarks. First, contrary to 
some interpretations of the weakness of al-Qaeda today, I would 
respond that it is actually quite resilient. As I look at both 
al-Qaeda as it stood reflected, in part, in your map, Mr. 
Chairman, there has been a net expansion in the number and the 
geographic scope of al-Qaeda affiliates and allies over the 
past decade, indicating that al-Qaeda, at least in my view, and 
the movement are far from defeated. I will explain in a moment 
what I mean by al-Qaeda.
    This growth in my view is caused by at least two factors. 
One is the Arab uprisings, which have weakened regimes across 
North Africa and the Middle East and created an opportunity for 
al-Qaeda and its affiliates to establish or attempt to 
establish a foothold or a safe haven. I would submit that the 
developments in Egypt are of particular concern. It is where 
the current head of al-Qaeda is from. And it is another 
potential avenue for a foothold depending on how that situation 
develops over the next several weeks and months.
    In addition, the growing sectarian struggle across the 
Middle East between Sunni and Shi'a, which has been funded on 
the Sunni side by both states and non-state actors, has 
increased the resources available to militant groups, including 
to al-Qaeda and its affiliates. So the first point is that I 
think there has been a slight net expansion in al-Qaeda's 
geographic scope and its number.
    Second, however, this expansion has, along with the 
weakness of central al-Qaeda in Pakistan, recently anyway, 
created a more diffuse and decentralized movement. And I do 
think this is important because I think what we see as we look 
at Syria, Jabhat al-Nusra, Iraq, al-Qaeda in Iraq, Somalia, al 
Shabaab, Yemen, the al-Qaeda in the Arabian Peninsula, and al-
Qaeda in the Islamic Maghreb in North Africa, the main 
affiliates, they largely as I interpret it run their operations 
somewhat autonomously, though they still communicate with the 
core and still may take some strategic advice.
    And I would note that what is interesting in the Syrian 
front is the attempt from the core in Pakistan to adjudicate a 
dispute between al-Qaeda in Iraq and Jabhat al-Nusra in Syria 
and then to have the affiliate in Syria essentially break away 
from Iraq, the al-Qaeda in Iraq segment, and swear allegiance 
directly to the core element in Pakistan, which to me 
symbolizes that there is still some importance to that 
leadership.
    Now, the way I would, if pressed, define al-Qaeda today 
would include the core in Pakistan. And I would say, even if 
Zawahiri were killed, there are at least three potential 
replacements that sit in Iran today, all of whom are quite 
well-esteemed and are members of what was called the Management 
Council and one that sits in Yemen. So, even with the death of 
Zawahiri, I still think you would get a movement that would 
continue.
    And, then, third, let me just say that within this 
disparate movement, most al-Qaeda affiliates are not actively 
plotting today attacks against the United States homeland. In 
the near term, I would probably say the Yemen contingent poses 
the most serious threat in the sense that we see the most 
notable plots coming out of Yemen, along with the inspired 
networks.
    I think the Boston bombings should be viewed in the al-
Qaeda context. The bomb-makers reviewed al-Qaeda documents from 
Inspire magazine, listened to al-Qaeda leaders including Anwar 
al-Awlaki, and must be viewed as inspired individuals of al-
Qaeda.
    Other groups do not appear to pose a threat, at least in 
the near term, to the U.S. homeland, but I think, as the Syria 
context shows, the Jabhat al-Nusra's recruitment and funding 
networks in Europe, in particular, should be a cause of U.S. 
policy-makers.
    So, taken together, I will just conclude by saying these 
arguments suggest that the U.S. needs to adopt a nuanced 
approach to countering al-Qaeda. Where there is a direct 
threat, I think there is opportunity for the U.S. to pursue 
terrorists. And I think where there is not a direct threat to 
the U.S. homeland, as we saw in North Africa, with al-Qaeda and 
the Islamic Maghreb, having allies like France take the lead is 
well within our grounds.
    Let me just say my final sentence. To conclude, this is 
going to be likely a long war, much like the Cold War, and I 
think we need to view it in those terms. This is really a 
decades-long struggle.
    Thank you.
    [The prepared statement of Mr. Jones follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Poe. Dr. Kagan?

  STATEMENT OF FREDERICK W. KAGAN, PH.D., CHRISTOPHER DEMUTH 
    CHAIR AND DIRECTOR, CRITICAL THREATS PROJECT, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Kagan. Thank you, Mr. Chairman, Ranking Member Sherman. 
And thank you to the committee for holding the hearing on this 
topic and scoped in this way.
    I think it is extremely important that we be able to have a 
conversation about what the threat actually is, divorced 
somewhat from what we actually want to do about it. And so I 
want to make it clear of what I am not here today to do. I am 
not here today to propose a solution. I am certainly not here 
today to propose invading other countries or repeating Iraq or 
something else like that.
    There is a caricature of what the position is of some of 
those who critiqued the current administration's strategy. My 
main critique is that we do not have a strategy that is 
remotely adequate. And I think, as Seth said, extremely well, 
what is required is a nuanced strategy that will require 
different approaches, that will require creativity, but that, 
above all, will understand that the al-Qaeda network is a 
holistic network, the parts of which interact with one another, 
and that the administration's attempts to parse out only those 
groups that currently have the stated intent of attacking the 
United States and treat them as threats and the others as much 
less threats or not threats at all is extremely dangerous and 
distorts the actual threat from the movement as a whole 
because, as Seth explained, the groups interact with one 
another in a variety of ways. And they also changed their 
minds. Al-Qaeda in the Arabian Peninsula was not, from the 
outset focused on attacking the United States directly. One 
would have made long odds that we would not have anything 
connected to the Islamic emirate or the caucuses in any way 
show up on our shores. Groups do change their positions. And 
that is something that we need to be very cognizant of.
    Seth's point about the sectarian war is extremely 
important. The context within which we are having this 
conversation today is fundamentally different from the context 
in which we were having anything like this in the early 2000s 
in the early part of the struggle. The sectarian war in the 
Middle East, which is expanding rapidly, is our concern for a 
number of reasons, but from this standpoint, it is our concern 
because that sectarian conflict opens up room and space for 
radicals like al-Qaeda and affiliates to expand their reach as 
a way of claiming that they are protecting Sunni populations 
against Shi'a attacks. We have seen this in Iraq. It was, 
unfortunately, very effective for al-Qaeda in Iraq. And it is 
effective for al-Qaeda in Iraq again. And it is tremendously 
effective for Jabhat al-Nusra. The more that you have an 
expansion of sectarian conflict, the more you will have 
initiative for and scope for and encouragement for extremist 
groups, some of them affiliated with al-Qaeda, to take root and 
take advantage of public fear.
    I want to highlight a couple of things that I think have 
been lost in this discussion and thank the terrific staff at 
Critical Threats Project, Katherine Zimmerman, who is here, and 
Sasha Gordon, for their work on al-Qaeda and on Yemen, in 
particular, to say part of my concern stems from the fact that 
the places where we have had strategies like Yemen, the 
strategy is failing. It is not working. We have had a strategy 
of very limited direct attacks against senior al-Qaeda and 
Arabian Peninsula leaders, coupled with a strategy that focused 
on the diplomatic resolution of the challenges in Sana'a and 
assistance to the Yemeni security forces.
    Most of the fighting against al-Qaeda in the Arabian 
Peninsula was done by the Yemeni security forces. And they did 
a very good job of retaking ground that AQAP had taken. And I 
think the ranking member's point is a very important one. We 
certainly do need to work through our allies whenever possible 
and strengthen our allies whenever we can in this fight. The 
problem is that the Yemeni security forces are not only not 
being strengthened. Not only are they being weakened, but they 
are fracturing. And we have counted more than 24 mutinies in 
brigade-level units in the Yemeni security forces over the past 
couple of years.
    The rate of mutinying has been accelerating. We have had 
instances of elite units engaged in the fight with al-Qaeda 
being effectively dissolved in place by mutinies and the Yemeni 
Government response. This is a force that is cracking, 
unfortunately. And, as a result of that, we are seeing AQAP 
reattack into Abyan, reattack into areas that it had been 
driven out of, and begin to reestablish itself.
    And I raised this specific case because Yemen has been held 
up as a model. And there are even some people who ignore the 
fact that Afghanistan has no coastline and suggest that we 
should apply the Yemen model to Afghanistan. And before we have 
that conversation, it is incredibly important to understand 
that the Yemen model isn't working in Yemen.
    And if there is any desire on the part of the committee, I 
would be happy to talk about similar challenges that our 
strategy in Somalia is facing where our allies there, who are 
even more limited in capability, are running into very 
predictable challenges to their ability to maintain gains, let 
alone to expand on them.
    So my bottom line is I think that Seth may have been a 
little bit too optimistic. I think that we actually need to 
consider the possibility that we are starting to lose the war 
with al-Qaeda and that we really need to rethink our strategy. 
Such as it is, very, very fundamentally in light of the fact 
that we maybe need to recognize that it actually is failing for 
all the damage that we have done to the core group in Pakistan.
    Thank you for your time.
    [The prepared statement of Mr. Kagan follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Poe. Mr. Joscelyn, you have 5 minutes.

 STATEMENT OF MR. THOMAS JOSCELYN, SENIOR EDITOR, THE LONG WAR 
         JOURNAL, FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Joscelyn. Well, thank you, Chairman Poe and Ranking 
Member Sherman, and other members of the committee, for having 
me here today. And I am honored to be on this panel besides 
these gentlemen and to testify before you on this topic.
    Like Fred, one thing at the outset I would say is I am 
somewhat solution-agnostic. I am basically a nerd who follows 
the details on a day-to-day basis. And so that is sort of what 
I am here to discuss. And, you know, I think that there is a 
good, sizable debate to be had about the actual solutions in 
various areas about how to approach this, what I characterize, 
as they have as well, as an expanding enemy.
    The three points--I would like to keep to the bullet point 
format. I will say there are three points I would sort of boil 
this down to. The first is that a lot of times when we talk 
about al-Qaeda, we talk about the threat to the U.S. homeland, 
and the ability to carry out mass casualty attacks. And that is 
understandable as that is the first goal of the U.S. 
Government, to prevent such attacks.
    I would say from a comprehensive review of al-Qaeda's 
literature and a comprehensive review of their assets and their 
operational capacity, that has not been their only goal 
throughout their entire existence, not even close, that 
attacking us was always a tactic as part of their larger 
strategum in the game that they are playing, which involves 
politics in a variety of countries and uncertainties of 
guerrilla warfare along those lines.
    In that regard, I would point to the 9/11 Commission 
report, which pointed very early on, now more than two decades 
ago, that Osama bin Laden actually employed a strategy of what 
I characterize as planting seeds in a variety of countries to 
try and hopefully cultivate what we now see as affiliates or 
branches.
    Now, these efforts have not been fruitful in every country. 
They have had fits and starts. And they have not always worked 
out. But I would argue that in some ways, in some spectacular 
ways, these efforts have actually worked. And so I don't think 
the growth of the affiliates is, in fact, a surprise or 
anything we should take as some sort of random event that just 
happens by happenstance.
    The second point is the committee expressed interest in 
sort of the delineation between al-Qaeda's core and the 
affiliates. Part of my concern is that we talk about the al-
Qaeda core as if it is this group in Afghanistan, Pakistan 
solely, which is totally distinct from everything else that is 
going on around the world, and that, therefore, if we just kill 
off the core, the threat from al-Qaeda as it manifested itself 
on 9/11 is no longer a worry for us.
    I think even the Bush administration got into that at times 
as well, making statements like, ``We killed 75 percent of 
senior al-Qaeda leaders.'' You know, President Obama has now 
said that we killed 73 percent of senior al-Qaeda leaders. You 
kind of wonder, you know, how many times we can kill three-
fourths of the senior al-Qaeda leaders. You know, they are able 
to replace their ranks.
    And in that vein, al-Qaeda's core is not confined, I would 
argue, to Afghanistan, Pakistan. The way I look at it based on 
al-Qaeda's literature, including a recently published letter 
from Ayman al-Zawahiri, is that it is basically where their 
general command is actually headquartered. And they have a 
series of committees and advisers surrounding Ayman al-
Zawahiri. But the general command dispatches operatives around 
the globe to oversee their interests. And I won't get into the 
nerd analysis for you right now, but I can point to specific 
operatives we know are in touch with the general command, who 
have been dispatched by the general command, and they are 
operating in places such as Egypt, Libya, Syria, Yemen, Sinai, 
you know, across the globe basically.
    The third and final point is that, you know, a lot of the 
discussion centers on, of course, again, the threat to the U.S. 
homeland. And we should be happy that they haven't been able to 
execute something on the level of a 9/11-style attack. That is 
the good news. Certainly America's defenses have improved 
through the years. We have thwarted plots. We have also gotten 
lucky on occasion, avoiding mass casualty attacks. But I just 
want to highlight something in my testimony.
    When you talk about the threats to the U.S. homeland now, 
they are more diffuse, not just abroad but also to us here in 
this country. Since 2009, the way I look at it, there have been 
plots from the al-Qaeda in the Arabian Peninsula starting on 
Christmas Day 2009; plots by the Pakistani Taliban in May 2010, 
which had the failed Times Square bombing. They actually took 
credit for that at my Web site. They emailed us the credit for 
that operation.
    The Pakistani Taliban, according to the Obama 
administration, which has done a good job of describing the 
Pakistani Taliban, has a symbiotic relationship with al-Qaeda. 
There is a recent plot early this year connected to al-Qaeda 
members in Iran which involved derailing the train from New 
York to Toronto. And we have seen recent evidence that al-Qaeda 
in Iraq, according to the Iraqi Government anyway, may have 
considered dispatching operatives to launch some sort of 
chemical weapons attack in Europe and also the U.S.
    In that regard, I point out that al-Qaeda in Iraq actually 
was tied to the 2007 failed attacks in Glasgow and London and 
was actually tasked in 2004 by al-Qaeda's general command with 
coming up with a plan to attack us.
    So, just to wrap this up quickly, most of the affiliates 
spend most of their assets doing something else, fighting 
guerrilla warfare, trying to gain turf for themselves 
elsewhere. Most of their assets are not deployed against us in 
any immediate threat capacity. However, I think we have to be 
very careful not to assume away that threat and to understand 
that these threats manifested themselves very rapidly.
    Thank you.
    [The prepared statement of Mr. Joscelyn follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Poe. Thank you.
    Dr. Hegghammer, is that correct?
    Mr. Hegghammer. That is correct.
    Mr. Poe. Thank you. You have 5 minutes, sir. Thank you for 
coming from California to be here today.

STATEMENT OF THOMAS HEGGHAMMER, PH.D., ZUCKERMAN FELLOW, CENTER 
FOR INTERNATIONAL SECURITY AND COOPERATION, STANFORD UNIVERSITY

    Mr. Hegghammer. Thank you, Mr. Chairman, for inviting me. 
And thank you, Ranking Member and all of the distinguished 
members of the subcommittee. It is a great honor to be here.
    I have been doing academic research on al-Qaeda since 
before 9/11. And never has the future of the jihadi movement 
seemed more unpredictable to my eyes than it does today. Still, 
for this testimony, I have decided to try to look ahead and 
speculate about the long-term future of al-Qaeda. And in these 
opening remarks, I will highlight my three most important 
conclusions.
    First, it is my assessment that we are past the peak of 
organized jihadi terrorism in the West. Al-Qaeda core is weak, 
and most affiliates are not systematically targeting the U.S. 
homeland. The main threat in the next 2, 3, perhaps 5 years is 
ad hoc attacks by unaffiliated agents, which are harder to 
prevent but less lethal on average. Affiliates seem to be 
holding their fire against the West, partly because they have 
primarily local agendas, for which overseas operations are not 
very useful, and partly because they seem to fear the U.S. 
military response that comes with attacks on the homeland. So 
deterrence, in other words, appears to be part of the story 
here. And to maintain this deterrence vis-a-vis jihadi 
organizations, the U.S. in my view should continue to use 
military force in counterterrorism selectively, primarily 
against those groups with a proven willingness to attack the 
U.S. homeland. Using heavy force against groups that have not 
yet attacked us runs the risk of provoking the very behavior we 
are trying to prevent.
    My second and more pessimistic point is that the jihadi 
movement writ large is thriving and will be with us for another 
decade at least. I think that the optimists were basically 
wrong in commenting on the Arab Spring. The Arab Spring was not 
an end of the Cold War moment for jihadism. Al-Qaeda core may 
be very weak, and al-Shabaab in Somalia may be experiencing 
setbacks, but the other affiliates are doing just fine. And the 
new Ansar al-Sharia groups in North Africa are growing. The 
Syrian war, with its staggering numbers of foreign fighters, 
has been a major boost to the movement. For now, most of these 
groups are not targeting the West. This could change, however, 
and we should pay particular attention in my view to Jabhat al-
Nusra because it disposes of so many Western operatives.
    My third point, which is more of a guess, really, is that I 
expect to see a second wave of serious plots in the West some 
4, 5, 6 years down the line. And the most likely perpetrator 
will be an organization that we do not yet know about. It 
could, of course, come from existing affiliates as well, but 
these groups have the disadvantage of being known to us and 
they are led by people who have seen what drones can do, which 
means they are less likely to try systematically attacking the 
West. And if they do, we know where to direct the retaliation.
    Future groups, on the other hand, might be less visible to 
our agencies and be led by a new generation prone to 
overestimating their own capabilities. Their chances of success 
will depend on our continued vigilance and ability to spot such 
grouplets early. More than ever, we need a concerted effort, 
both in the intelligence community and the academy, to make 
sense of this rapidly changing jihadi landscape.
    Thank you for your attention.
    [The prepared statement of Mr. Hegghammer follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Poe. I want to thank all of you for being here. I want 
to go back to the map that I showed you earlier. Won't you 
comment on the map? It is over to your left or right, whichever 
way you want to look. And you can see that according to this 
map, al-Qaeda's presence is in Afghanistan, Pakistan, Syria, 
Iraq, Yemen, Somalia, Algeria, Mali, Libya, Niger, Tunisia, 
Morocco, and Nigeria. My question is, do you agree that those 
are accurate countries that al-Qaeda has a presence in or not? 
Dr. Jones?
    Mr. Jones. Mr. Chairman just looking at that for the first 
time, I would say that al-Qaeda or one of its allies is present 
in the countries you have identified. Let me just say two 
things. One is that in some of these cases, I would call them, 
really, an al-Qaeda affiliate in the case of Somalia and Yemen; 
in other cases, as in parts of Algeria, there may be the group 
Those Who Sign With Blood or down in Mali, Ansar al-Dine 
allies. They have a foreign affiliate.
    Mr. Poe. Al-Qaeda or al-Qaeda affiliates.
    Mr. Jones. Yes.
    Mr. Poe. Let's use that terminology. Dr. Kagan?
    Mr. Kagan. Yes. Like Dr. Jones, I would agree that there 
are al-Qaeda or affiliated or allied movements in all of those 
statements. We might argue about some of the ``blobology.'' And 
I think the Afghan presence at the moment is a little less than 
what is implied there.
    Mr. Poe. Fine.
    Mr. Kagan. But in general terms, yes.
    Mr. Poe. Mr. Joscelyn?
    Mr. Joscelyn. You know, it is funny. We have this 
conversation about putting together a map at the Long War 
Journal constantly, about how to do this because it is actually 
very tricky.
    Mr. Poe. You can use my map.
    Mr. Joscelyn. Yes. I agree with most of it. I would have to 
sort of pick at it a little bit, I think. See, here is the 
challenge. Okay? You look at, for example, an area like the 
Sinai, where we are tracking terrorists right now and who is 
there and we are tracking al-Qaeda operatives right there. They 
seem to have built the force in the hundreds, if not thousands, 
in the Sinai right now, including specific individuals. In 
fact, there is a great article up at the Long War Journal today 
about a former doctor to bin Laden, who has been basically 
running some jobs there.
    The problem is I agree with most of the map. I would have 
to sort of pick over it a little bit more. But I think it does 
make sense to say that you have al-Qaeda or affiliated groups 
and you also have associated movements, which the collusion 
there is often a lot stronger than people give them credit for.
    Mr. Poe. And there are some want-to-be's in the groups, 
too.
    Mr. Joscelyn. There are some want-to-be's. You have some 
guys who are really just flying the flag who aren't really 
connected to the overall network, but I think there are a 
number of groups. You know, Seth had mentioned Ansar al-Dine, 
for example. The Treasury Department's designation of them is 
very clear. The State Department's designation is very clear 
that they have been working very carefully and closely with 
AQIM for a long time. So it is reasonable to include those 
groups in your map.
    Mr. Poe. All right. Dr. Hegghammer?
    Mr. Hegghammer. Well, I agree largely with the map and also 
with the comments that have been made already. I would also 
have added perhaps a little red dot in the Sinai.
    Mr. Poe. Little red dot to the Sinai.
    Mr. Hegghammer. Yes.
    Mr. Poe. Okay.
    Mr. Hegghammer. In Egypt, yes. But I would also mention in 
this context that the size of the area covered is not 
necessarily a measure of strength. Some of the groups happen to 
be in desolate areas. So they get a lot of red ink there.
    Mr. Poe. Because there is nobody else there.
    Mr. Hegghammer. That is right.
    Mr. Poe. There is nobody in those areas.
    Mr. Hegghammer. Some of the smaller dots have very powerful 
affiliates.
    Mr. Poe. Okay. Thank you.
    Dr. Kagan, if I wrote your comments down correctly, you 
said that the United States lacks an overall strategy. What 
does that mean? And explain it briefly?
    Mr. Kagan. Sir, I do not think that we have articulated a 
strategy for defeating al-Qaeda as a global network with 
affiliates and its associates. I think that we have undertaken 
a collection of tactics and we have made a number of broad 
statements about this. But I believe that this is a challenge 
that is worthy of the kind of analytical and planning effort 
that went into NSC-68 or any other extremely serious war. And, 
candidly, especially after the death of Osama bin Laden, I 
looked for a major planning effort of that variety to think 
about what the next stage was. And I do not believe, at least 
if that has happened, then I am completely unaware of it.
    Mr. Poe. So if I understand what you said, overall strategy 
of the United States to deal with al-Qaeda, al-Qaeda 
operatives, affiliates, we don't have one of those. But if 
events occur, we have tactical response to each specific 
attack. Is that a fair statement or not?
    Mr. Kagan. Well, more than that. I mean, there is an 
offensive component to what the Obama administration is 
attempting to do. And there is a theory behind I think what 
they are undertaking with their targeted strikes and other 
activities. But I don't see a coherent, holistic strategy that 
says, ``This is the network we are looking at. These are the 
effects we need to generate on the network. These are how we 
are going to apply all the tools of government and so forth to 
do that.'' And I think it is going to require an effort of that 
magnitude to scope the problem and then scope a strategy that 
might be successful.
    Mr. Poe. Let me ask you this question. I want to talk about 
al-Nusra in Syria and their influence in Syria. What are they 
doing in Syria? I guess of all of the rebel groups there, I am 
concerned about them. How influential are they? And what are 
they actually doing? Does anybody want to weigh in on that? You 
all know. So just somebody tell me.
    Mr. Kagan. Sure. I am happy to keep talking. Jabhat al-
Nusra is extremely influential in Syria, and I think its 
influence is generally growing. That has largely to do with its 
ability to receive large amounts of external aid.
    Mr. Poe. From?
    Mr. Kagan. From Qatar, from other countries in the Gulf, 
and from the international----
    Mr. Poe. Governments are supporting al-Nusra?
    Mr. Kagan. I can't prove that governments are supporting 
Jabhat al-Nusra.
    Mr. Poe. You think they are?
    Mr. Kagan. But I believe that the Qatari Government has 
been, and I have seen indications that the Kuwaiti Government 
may be as well, or elements within the Kuwaiti Government may 
be as well. Certainly private jihadi donors within the Gulf and 
elsewhere in the world are supporting the movement. And, as a 
result of that, it is probably the best armed and equipped 
fighting force in Syria.
    I think we are already in a situation where there is going 
to be a conflict between the Free Syrian Army and the moderate 
forces that it represents and Jabhat al-Nusra under almost any 
scenario unless there is a complete Assad victory, which I 
think is very unlikely. Right now my assessment is Jabhat al-
Nusra probably would win that fight.
    Mr. Poe. So, as we progress, those are the two factions on 
either side that are going to come to conflict. And your money 
is on al-Nusra.
    Mr. Kagan. Unless the situation changes, I think that al-
Nusra, Jabhat al-Nusra, has the advantage. They also have the 
advantage in that they have been establishing local government 
and they have been setting up local authorities in various 
different parts of Syria that they control and are trying to 
build themselves now. I don't think they actually have a whole 
lot of pocket or support for the ideology, but we have seen 
this phenomenon before that they are effective defenders. And, 
therefore, they put themselves into leadership roles.
    Mr. Poe. Thank you.
    Ranking member, Mr. Sherman?
    Mr. Sherman. Thank you.
    I don't want the panel to think that the absence of 
Democrats here reflects any disinterest or that my own absence 
soon will do that. As it happens, we have scheduled an 
important caucus meeting at the same time as this hearing. And, 
of course, this hearing was delayed by votes on the floor.
    My concern is not just with an attack on the American 
homeland, although that is a natural focus. I think that 
attacks on U.S. interests of blood and overthrow of relatively 
friendly governments pose as great a threat to us as anything 
else, even a modest attack, at least, on the U.S. homeland. I 
am concerned, not just with al-Qaeda and its affiliates, but 
just about any one inspired by the same movement.
    This is a complicated area. I mean, in World War II, we 
could put a color on the map. There were neutrals. There were 
countries on our side. There were countries against us. Kuwait 
exists only because we liberated them. Now we are told that the 
Kuwaiti Government and elements in it are allowing private 
monies and even government monies to go to Jabhat al-Nusra. 
That confuses me a little bit. What confuses me more is the 
testimony we have heard that, on the one hand, Iran is 
sheltering three of the most important al-Qaeda leaders.
    On the other hand, Jabhat al-Nusra may be part of an effort 
to obliterate the Alawite community. This focuses our attention 
on the Shiite/Sunni divide and Iran.
    Does Iran have those al-Qaeda leaders under house arrest or 
should we call it hospitality? Mr. Joscelyn?
    Mr. Joscelyn. Well, the answer is both, but because what 
Seth is talking about in terms of the network inside Iran is 
very important. In July 2011, then December 2011, then February 
2012, and then October 2012, the Obama administration's 
Treasury and State Departments' designated al-Qaeda network 
inside Iran that operates under an agreement between the 
Iranian regime and al-Qaeda. So those are the four things I 
would point you to to go look at. And there is specific factual 
detail in those designations that is a very rigorous process 
the Treasury Department and the State Department go through to 
explain that.
    What they have done is since 2005, at least, there has been 
a facilitation network inside Iran to basically shuttle 
fighters to south Asia and elsewhere. And simultaneously the 
Iranian----
    Mr. Sherman. So those that are motivated, can arrive in 
Iran and then end up in Afghanistan or Pakistan?
    Mr. Joscelyn. Sure. And in some cases, I uncovered, for 
example, that in 2010, one of Osama bin Laden's last plots 
against the West used the same facilitation network to try and 
execute Mumbai-style attacks in Europe. So it is a robust 
facilitation network.
    Mr. Sherman. Okay. I see what al-Qaeda gets out of it.
    Mr. Joscelyn. Right.
    Mr. Sherman. They get a sanctuary in a place where we are 
reluctant to use drones.
    Mr. Joscelyn. Sure.
    Mr. Sherman. What does Iran get out of it?
    Mr. Joscelyn. Well, I think they want to influence where 
al-Qaeda is attacking. They don't want al-Qaeda coming after 
them. They also have common enemies. They have common interests 
and throughout. They don't have common enemies in Syria right 
now, which is what I think your question was really pointed at, 
which is that right----
    Mr. Sherman. Wouldn't it upset the alliance, if you will, 
for Iranians to know that this is a group bent on the 
destruction of the Alawite community when Iran sees itself, 
first and foremost, as a defender of Shiites, even different 
flavors of Shiites, than they themselves embrace?
    Mr. Joscelyn. Sure. Even beyond that, you have Hezbollah 
and the IRGC on one side of the Syrian war and al-Qaeda and its 
affiliate and related groups on the other.
    Mr. Sherman. Right.
    Mr. Joscelyn. So they are directly in conflict. I mean, 
this is something we are watching right now. Just to your 
point, Muhammed al-Zawahiri, who is the brother of Ayman al-
Zawahiri, for example, released a statement calling for attacks 
against Shiite-led governments because of what is happening in 
Syria. So this is the type of statement from somebody in al-
Qaeda's sphere that shows there is clearly tension over Syria.
    The head of al-Qaeda, Ayman al-Zawahiri, has certainly 
ratcheted up the rhetoric against Iran as well.
    Mr. Sherman. Finally, where do al-Qaeda and its affiliates 
and allies get their money? And have we been all too willing to 
do business with those who countenance such contributions? Dr. 
Jones?
    Mr. Jones. Sure. The proper answer is it depends on which 
affiliates you are referring to. There is a lot of redundancy 
among al-Qaeda's affiliates. Some are involved in illegal or in 
some cases legal charcoal trade. Most get some funding from 
different players in the Gulf.
    Mr. Sherman. Charcoal?
    Mr. Jones. Yes. There is----
    Mr. Sherman. That can't be a high-profit item.
    Mr. Jones. Well, when you are able to tax various elements 
of it, you might be surprised. But the broader point that 
timber trading, gem trading, there have been a range of--when 
you control trade in a given area, you can tax individuals 
living there. So there is a redundancy in----
    Mr. Sherman. Looking at all of the allies and affiliates of 
al-Qaeda as a group, what portion of their money comes from--
what would I say?--revenues they have generated? And what 
percentage comes from donations from governments and 
individuals in the Islamic world?
    Mr. Jones. I would say I could not put a percentage. And I 
would say I have never seen anybody put a reliable percentage 
on it.
    Mr. Sherman. Give me your best guess.
    Mr. Jones. I would say that a fairly significant amount of 
funding of al-Qaeda's core and its affiliates does come from 
wealthy donors is the way I would put it in the Gulf.
    Mr. Sherman. Okay. I will ask each member of the panel if 
you can just give me your best guess number. What percentage 
from the wealthy donors? What percentage from----
    Mr. Kagan. Sir, I don't make up numbers. And I have never 
seen evidence.
    Mr. Joscelyn. You know, I have never seen a specific 
budget. However, I would say that I agree with Seth that a 
significant percentage comes from donors in the Gulf, sure.
    Mr. Sherman. And one quick follow-up. Maybe the doctor 
can--and that is, what happened to Osama bin Laden's personal 
fortune? And is that being deployed by this? You know, he was 
once worth tens of millions of dollars. Go ahead.
    Mr. Hegghammer. Regarding the first question, I would also 
say that I don't know. And I haven't seen any numbers from 
people who know. My guess would be that the proportion of funds 
coming straight from donors in the Gulf to al-Qaeda and its 
affiliates as a whole is relatively small, although this varies 
between affiliates.
    So perhaps the only affiliate that we in the open source 
world know of is the account of al-Qaeda in Iraq in the mid 
2000s. And they got quite a lot of their money from the foreign 
fighters that were coming from the Gulf. They were bringing the 
money with them. That was their main supporter. But if you go 
to another group, al-Qaeda in the Islamic Maghreb, they get 
most of the money from a completely different one, which is 
kidnappings.
    Mr. Sherman. I yield back.
    Mr. Poe. The gentleman yields back. As the ranking member 
mentioned, the Democrat Party has an important caucus this 
afternoon. And yes, you may. I will yield. And he may need to 
leave, too. So I will turn the question over to the gentleman 
from Pennsylvania, Mr. Perry, for 5 minutes.
    Mr. Perry. Thanks, Mr. Chairman, the gentleman. Thanks for 
your testimony. Particularly enlightening for me was some not 
surprising but new news with Qatar and Kuwait being brought 
into the discussion; like I said, not surprising but a little 
new for me anyhow.
    Having served in Iraq--and, Tom, you served there as well--
I have got to tell you I was particularly frustrated, 
disappointed in disagreeing with the administration on the lack 
of a status of forces agreement when we departed. I would like, 
I think, Dr. Kagan, maybe Dr. Jones, your comment on the 
effects of that regarding al-Qaeda particularly and then 
looking forward to Afghanistan, recent posturing, whether it is 
posturing or not, the same relative discussion regarding 
Afghanistan and the status of forces agreement in relation to 
resurgent or revitalized al-Qaeda in both areas.
    Mr. Jones. I think those are very good questions. I think 
the failure to establish and reach a status of forces agreement 
in Iraq in the U.S. withdrawal allowed two things: It allowed 
al-Qaeda in Iraq to regenerate. Its attacks are greater this 
year than they were in the last year of U.S. involvement in 
2011.
    And, second and perhaps more important there, it allowed 
al-Qaeda and Iraq to help establish Jabhat al-Nusra in Syria. 
Those were two I think devastating steps in that region that 
the U.S. withdrawal from Iraq at least allowed.
    And, second, that means that the agreement in Afghanistan 
assuming it comes will be quite important. I think if the 
United States leaves Afghanistan with an active al-Qaeda 
presence up in Kunar, Nuristan, Nangarhar Provinces, it does 
create the possibility for a reestablishment of the 
organization in an area that it does have local allies.
    Mr. Kagan. Congressman, thank you. Thank you for your 
service. And thank you for your question.
    I think you can identify three main reasons why the 
departure of U.S. forces from Iraq has contributed to the 
revitalization of al-Qaeda in Iraq. One was that the Iraqi 
security forces were not designed to be able to continue to 
conduct operations against AQI without American enablers. We 
knew as we were building the ISF that it would not have the 
capability to replicate our ISR capabilities, to replicate our 
precision strike capabilities, or to do a variety of other 
things that were allowing us and allowing the Iraqi security 
forces to conduct precise operations that were effective, 
highly effective, against the al-Qaeda organization.
    What we have seen as we have watched Iraqi security forces 
try to operate against the movement is that they have reverted 
to patterns that will be familiar to people who have watched 
how they tried to operate on their own in 2006. And they have 
been largely ineffective, although they have been in some 
cases, courageous. That pattern would be replicated in 
Afghanistan. The Afghan National Security Forces in my opinion 
are incapable of operating effectively without American 
enablers after 2014. And we would be inviting exactly the same 
situation in Afghanistan that we have in Iraq now if we 
withdrew all of our enablers.
    The second major driver in Iraq has been that the departure 
of all of our forces, which also, not inevitably perhaps but 
coincidentally perhaps, matched the departure effectively of 
all of our influence in the country, enabled, perhaps 
encouraged, Prime Minister Maliki to embrace his sectarian 
side. And it is surely not an accident that it was pretty much 
on the way home from Washington, DC, when he gave the orders to 
have Vice President Tariq al-Hashimi arrested, which began a 
process of sectarization, driving Sunni out of the political 
process. We had been acting as a significant break on that kind 
of sectarianism by putting pressure on him, by having 
visibility on the situation. We are performing a different role 
in Afghanistan but still a stabilizing role that would go away.
    And, lastly, we were performing a critical peacekeeping 
function along the green line between the Kurds and the Arabs. 
And we have seen revival of conflict along that line now. And I 
think you could fear a revival of civil war in Afghanistan if 
we cease to play a peacekeeping role there.
    Mr. Perry. So real quickly and not many seconds for big 
foreign policy issues like this, but if you could, the future 
of al-Qaeda in Iraq based on current trends and their 
proclivities as you see them, either, any one of you gentlemen? 
And then our relationship with Pakistan post a pullout of 
Afghanistan and the resurgent al-Qaeda?
    Mr. Kagan. Well, I am very concerned about the trajectory 
that al-Qaeda in Iraq is on, particularly conjoined because you 
can't separate it from the trajectory that Jabhat al-Nusra is 
on. And I fear the possibility of the establishment of an 
effectively al-Qaeda-controlled area that crosses from western 
Iraq into eastern Syria, along those tribal lines. And, of 
course, as you know, the tribes straddle the border as well. 
That is of tremendous concern to me. And I think that the issue 
of threat to the United States is, as my colleagues have made, 
important because we need to think about the capabilities and 
capacities that an organization that had that kind of breathing 
space would have to plan, develop, and conduct a task against 
the United States if it so chose. And I find that very, very 
worrisome. And I find the likelihood that it will continue to 
deteriorate in Iraq very high.
    And I have a very serious concern that I would like to air 
here, which is that there will be a natural tendency for the 
United States to be drawn in on the side of Nouri al-Maliki in 
the name of conducting operations against al-Qaeda in Iraq. And 
those of you who have served in Iraq and have seen that on the 
ground know exactly what the danger is.
    We really will run the risk of becoming the hit squad, a 
sectarian hit squad, for al-Maliki in a way that will simply 
make us appear to be the enemy of the Sunni people without 
being effective against this group. So we are going to have to 
approach this with a great deal of nuance and complexity such 
as I don't see apparent so far in our discussions about this 
such as there have been any.
    Mr. Poe. Next turn to the gentleman from Illinois, Mr. 
Schneider.
    Mr. Schneider. Thank you, Mr. Chairman. And thank you to 
the witnesses for your testimony and insights today.
    I would like to pick up--Dr. Kagan, you talked a little bit 
about Syria and al-Qaeda's increasing influence in Syria. We 
recently saw the assassination of Commander Kamal Hamami, who 
is one of the senior members of the military council.
    And, Dr. Jones, in your testimony, your submitted 
testimony, you talked about a U.S. strategy to include--I will 
quote you--``three steps utilizing a light footprint strategy, 
improving the effectiveness of governments in countries 
threatened by al-Qaeda, and undermining al-Qaeda's ideology to 
help weaken al-Qaeda.'' In Syria, in particular, which in many 
ways someone wants to describe in this room as a hub state at 
the center, to the whole panel, how do you see our strategy 
developing to address the threat of al-Qaeda in Syria to take 
us in a direction that will provide the best outcome in a very 
bad situation?
    Mr. Jones. Well, I think the results are fairly 
straightforward. The decision not to intervene in any way in 
Syria strengthened al-Qaeda's affiliate Jabhat al-Nusra. It is, 
as I think virtually everybody here has said, probably the most 
capable al-Qaeda affiliate on the globe with the weapons it has 
seized from, among other places, Syrian military bases that it 
has helped overrun.
    I think the strategy has got to include two elements of it, 
which may appear contradictory but I think one can find ways to 
deal with. One is to take down the Assad regime. And second is 
to weaken Jabhat al-Nusra at the same time. I am not sure we 
are doing either particularly effectively right now.
    Mr. Schneider. Thank you.
    As you look at Jabhat al-Nusra and my understanding is, in 
addition to Jabhat al-Nusra, there are other al-Qaeda fighters 
coming into Syria from other places, work to take down the 
Assad regime, other al-Qaeda fighters in weakening the Free 
Syrian Army, the prospects for the opposition, how do we 
address that issue?
    Mr. Jones. Well, I think if you look at Syria today and you 
look at some of the polling data that has come out of the 
region, it looks like the support for al-Qaeda's ideology, 
including Jabhat al-Nusra's ideology, in Syria is small, is 
minimal. We saw it recently in Mali when the French deployed. I 
think the issue is sidelining is--I think the bulk of the Sunni 
opposition to the Assad regime does not buy into Jabhat al-
Nusra's ideology of an Islamic Emirate, at least in their 
vision. I don't think the bulk of the population in Syria 
supports an Islamic Emirate, at least in the al-Qaeda vision. 
And so I think the way to do this is to work with a range of 
those opposition groups to target and undermine the ideology of 
Jabhat al-Nusra.
    I don't think there is much popular support within Syria 
for al-Qaeda's ideology. That is in my view their biggest 
weakness, not just in Syria but in other areas we see them 
operate.
    They need a vacuum. They don't have a lot of popular 
support.
    Mr. Schneider. I think that is a great point, but, Dr. 
Kagan, as you mentioned, the potential for a vacuum across the 
border between Iraq and Syria, in that land where you do have 
tribal affinities, any thoughts or advice you would have for us 
how to address that or what to be watchful for?
    Mr. Kagan. Yes. Look, I am happy to say very forthrightly 
that we need to be providing lethal support to the Free Syrian 
Army and we need to be--because that is one of the best ways to 
accomplish the goals that staff identified, which are the 
correct goals.
    On the one hand, hastening the fall of the Assad regime, 
the protraction of this war is one of the greatest dangers to 
national security from the standpoint of bringing in more 
foreign fighters, strengthening the al-Qaeda front, turning 
this more and more into a sectarian conflict. The sooner that 
one can move past that stage, if it is possible--and now it is 
looking much harder--the better it would be. But, most of all, 
because I believe that there is very likely to be a conflict 
between the moderate forces, which I would entirely agree with 
Seth, represent the will of the majority of the Syrian people 
and Jabhat al-Nusra, it is critical for us that the moderate 
forces win that fight.
    And we should be working now to ensure that the outcome of 
that fight is not endowed, which might be a way of limiting its 
scale when it actually happened. And that would have positive 
effects in Iraq also. It is obviously very difficult to imagine 
what we could do directly in Iraq to shape the situation there, 
but anything that we can do to weaken the rear of al-Qaeda in 
Iraq and its ability to use Syria as a base of support, which 
it is using now, would limit its ability to operate freely in 
Iraq, but I don't have a good answer for you about what to do 
in Iraq.
    Mr. Schneider. Thank you. I wish I had more time, but I see 
that I am out. I will yield back. Thank you.
    Mr. Poe. Thank the gentleman.
    Just a follow-up question from Mr. Schneider's comments. 
You mentioned strategy, strategy, strategy. Big picture. What 
is al-Qaeda's strategy? What is the point? Can you keep it 
simple, Dr. Jones?
    Mr. Jones. I will keep it simple. In my view, Ayman al-
Zawahiri's strategy includes the establishment of a caliphate 
that cuts across North Africa, the Middle East, and into South 
Asia. If you were to ask the affiliate leaders, you would 
probably get a more parochial answer, Islamic Emirates, in 
their regions. So I think the core would have a slightly 
different answer than most of your affiliate leaders.
    Mr. Poe. All right. We turn now to Mr. Cotton from Arkansas 
for 5 minutes.
    Mr. Cotton. Can I answer your question as well, Judge Poe?
    Mr. Poe. Yes, you can answer my question.
    Mr. Cotton. I think their strategy is simple. They want to 
eject America from where they want to establish a caliphate, 
and they want to kill you and they want to kill your 
constituents. That is where I think their strategy is.
    Can we talk about what I might call the ghost of Syria 
future? Al-Nusra right now is a potent force in Syria 2\1/2\, 3 
years ago. Was there much al-Qaeda presence at all in Syria? 
Can we just go down the panel? Does anyone think there was much 
al-Qaeda presence in Syria 2\1/2\, 3 years ago, before the 
uprising?
    Mr. Jones. No. Well, Syria was used as a major funnel for 
fighters into Iraq. So it was used for Iraq facilitation.
    Mr. Cotton. Dr. Kagan?
    Mr. Kagan. That was a very limited and carefully 
controlled, ironically, by the Assad regime pipeline because he 
feared precisely this would happen. So it was a very limited 
presence.
    Mr. Joscelyn. That is right. There was a pipeline that was 
run by Abu Ghadiya, who was the al-Qaeda facilitator. The U.S. 
forces had to take direct military action against him inside 
Syria because the Assad regime wouldn't crack down on him. He 
was aided by Assif Shawkat and other Syrian officials.
    Mr. Cotton. Dr. Hegghammer?
    Mr. Hegghammer. I concur.
    Mr. Cotton. Okay. So not my presence in al-Qaeda in Syria 
2\1/2\, 3 years ago. Target of opportunity has arisen. I have 
asked for the map to be put back up. The point here is not the 
extent of the blobs but where they circle around. AQIM, Syria, 
al-Qaeda in the Arabian Peninsula, Al-Shabaab are all forming a 
circle around Egypt.
    I would like to get your perspective on the risk that we 
face of having the kind of magnet or flypaper effect in Egypt 
given the fact that the Muslim Brotherhood is founded there 
intellectually and philosophically, the hearts of their world. 
Ayman al-Zawahiri is Egyptian, has deep ties there and the risk 
that America faces, either of a situation like Syria or perhaps 
a situation like Algeria, going forward in Egypt.
    Mr. Jones. I think we already saw a statement within the 
last week from leaders of al-Qaeda and the Islamic Maghreb al-
Nusra front and Al-Shabaab supporting jihad against the 
Egyptian military in Egypt. I would also note the Muhammed 
Jamal group was involved in the assassination of U.S. 
Ambassador Stevens in Libya. So Egypt is concerning for, as 
several people here said, what is going on in Sinai, what has 
gone on with Muhammed Jamal's network in Egypt, and also what 
we are seeing as potential support for the opposition to the 
Egyptian military.
    Mr. Cotton. Dr. Kagan?
    Mr. Kagan. In addition, I agree with everything that Seth 
said. In addition to that, we are tracking fighters moving from 
Gaza into Egypt in order to fight the Egyptian military as part 
of this takeover. There have been a number of want-to-be 
claims, you know. And want-to-be claims are want-to-be claims 
until they do something and then they get recognized. So I 
don't think we should dismiss them. I am deeply concerned about 
this.
    And the revolution against Morsi or whatever we are going 
to call it has absolutely cemented a narrative of ``I told you 
so'' from the faction, from Zawahari's faction, which those 
rejected political course. And their slogan now is, ``Bullets, 
not ballots.'' So I am very concerned.
    Mr. Joscelyn. Just real quick, al-Qaeda has been pursuing a 
two-pronged strategy in Egypt since 2011. One is dawa, or 
proselytization, inside Egypt's urban areas and settled areas. 
We don't know how extensive those efforts have been, fruitful 
in terms of earning new recruits but keep your eyes out for it. 
They have also used the urban areas as facilitation points for 
the attack in Libya and elsewhere. And simultaneously in the 
Sinai, they have been building this contingency of al-Qaeda-
related groups in the hundreds of thousands in the Sinai. And I 
pretty much guarantee you are going to see terrorist attacks 
from that group very soon.
    Mr. Hegghammer. I agree. I think there is a very clear risk 
of more violence in Egypt in the coming year, but I do think 
also that in the mid and long term, that that threat is 
manageable, both because the militants in Sinai will be 
squeezed between, you know, a police state in central Egypt and 
Israel. So those actors together I think will be able to manage 
that. So the casualty here will be democracy in Egypt and the 
sort of the momentum of the Arab Spring.
    Mr. Cotton. Thank you all for your time and your 
perspective. Let's hope that the map in 2015 doesn't have a 
blob in Egypt.
    Mr. Poe. Thank you, sir.
    Gentlemen, I appreciate you being here. And it is an honor 
to have so much wisdom here. If we were to add all of your 
degrees up together, it would look like a thermometer. So I 
appreciate you guys being here.
    We have got to get this right. I mean, I look out along the 
group here, and I see a lot of young people. And, you know, I 
am 58 years old. And when I look back, when we had the first 
oil embargo, it was in the '70s. And we have been dealing with 
Middle East conflicts in this country for a long time. We have 
got to get it right. We want to keep our young men and women 
here to grow America strong.
    And I want to start with you, Dr. Jones. You stated that 
you felt al-Qaeda was not a direct threat to the U.S., but they 
claimed responsibility for 9/11 and indirectly with the Boston 
Marathon, as you said, Mr. Joscelyn, that Osama bin Laden 
wanted to spread the seeds of al-Qaeda or jihad by seeding 
countries all over the world. And these were people that were 
sympathetic to their beliefs. And I think we see that 
happening. I think Boston was a great example of that. 
Unfortunately, it was here.
    And so my questions come back to, what is the sentiment and 
the mindset of al-Qaeda fundamentalists today versus that at 
its creation back in the '80s toward the U.S. and Western 
countries, I guess Western beliefs more in general? I want to 
kind of rotate between you guys. So if you would first just 
kind of answer that question?
    Mr. Jones. Two things. One is I do believe al-Qaeda is a 
threat. So not all of its affiliates pose a threat.
    On your question, I think the biggest difference is the 
social network and social media have allowed the views of key 
al-Qaeda leaders to influence young Muslims in multiple 
locations. And so what we have seen is and what makes this 
different, I think the ideology coming from Ayman al-Zawahiri 
in my view is not that different from what he was writing about 
in 1998 and 2000 and 2001, but he has got more access to key 
mediums to push that information out to influence individuals 
so that the organization can be more decentralized. You can 
reach Americans in Detroit and New York and Boston online.
    Mr. Poe. Right.
    Mr. Jones. And that makes this a very different 
organization than what existed back in September 11th and in 
many ways a more dangerous one.
    Mr. Poe. All right. Let me ask you guys this, and you guys 
all join in. So would you consider our lack of border security? 
Could that be a national security threat, you know, not just 
our northern border but our southern and our coastal? And just 
is that a national security threat, the lack of border security 
that we have in this country today?
    Mr. Jones. It should be a cause of concern, yes. There are 
foreigners that are moving back and forth across the U.S.-
Mexican border.
    Mr. Poe. All right. That was going to be my other question. 
Do you believe the entry through our borders is a security 
concern? And are they coming? So Dr. Kagan?
    Mr. Kagan. It is a concern, but I would say that what we 
are seeing that concerns me even more is a tendency in the 
policy debate and in the administration's policies to try to 
redraw the defensive line, where we are going to actually take 
action at our borders or inside our country.
    And although the border issue is important, if we harden 
our borders as much as we want to but give the enemy all the 
free hits they want from outside, I guarantee you they will 
find a way through our very large borders, even if we harden 
them more.
    Mr. Poe. Okay. Mr. Joscelyn, the national security threat 
to our borders?
    Mr. Joscelyn. It is a national security concern/threat. I 
can tell you that Hezbollah, in particular, is one of the 
terrorist organizations that uses facilitation. My view is that 
anywhere that there is an open or permissive environment, our 
enemies are pretty good at finding it.
    Mr. Poe. Dr. Hegghammer?
    Mr. Hegghammer. In my view, the main challenge is 
identifying the people with a bad intention crossing the border 
because we have to let people cross borders. The problem is----
    Mr. Poe. We are just talking about securing them, not 
closing them. So I agree.
    Mr. Hegghammer. Right. So in that case, I don't think that 
increasing the hard physical measures will have a particularly 
great effect on this. Most of the operatives are coming in 
through legal means.
    Mr. Poe. Okay. So you kind of answered my next question. 
And I want to see if the sentiment is the same with all of you. 
So based on your statements and answers, you recommend securing 
the borders, the southern, northern, and our coastal borders, 
to a certain degree more than we have now? Would you all agree 
pretty much with that?
    [No response.]
    Mr. Poe. We will take that as an affirmative.
    My last question is--and this goes back to developing 
policy so that we can get it right for now and from this point 
forward--how do you mount a campaign against an ideology, like 
radical Islam, whose goal is to remove the calf, or the 
nonbeliever, you know, or the Western ideologies? When there is 
not a nation state and when there is not an identified leader, 
what policies would you recommend that America can do in the 
Middle East or around the world that would make us more 
effective at this? If you guys can kind of briefly go through 
that, if you guys don't mind?
    Mr. Jones. Well, I think one of the major mistakes that the 
U.S. has made in the last several decades is to get rid of 
organizations like the U.S. Information Agency that did provide 
a way to push back against ideologies. If you look at the 
successes of the U.S., against the Soviet Union, it was things 
like Radio Free Europe and Radio Liberty and the U.S. 
Information Agency that were able to combat that ideology. We 
do not have an organized, collective effort to push back 
against extremist ideology.
    Where it has been done successfully--and I think it is 
worth looking at the successful efforts. Saudi Arabia, in 
facing a very serious threat from al-Qaeda between 2002 and 
2008--and Tom has written a really good book about this--did 
use a very effective strategy to delegitimize al-Qaeda in their 
state. So we have got some good examples of where it has been 
done. We have got some good historical examples. I think we 
need to push those through.
    Mr. Poe. Could those policies be used here in the United 
States? I mean, we have got two different governmental systems 
here.
    Mr. Jones. Yes, some of them can. Yes, some of them can----
    Mr. Poe. Okay.
    Mr. Jones [continuing]. Because it involved getting 
moderates to come out against the--moderate Muslims to come out 
against----
    Mr. Poe. All right. Let me hear from Dr. Kagan real quick.
    Mr. Kagan. One of the most effective things that I saw in 
my time in Afghanistan was the Jordanian, the JET team, the 
Jordanian Education Team, which went around. It was the de-
radicalizing Jordanian preacher. And he just went around and 
collected crowds of hundreds and told them what the Quran and 
the Hadith actually say, which is not what they had been told.
    We actually absolutely have tools now. Obviously we are not 
going to bring Jordanians around to do that here, but we 
actually have tools to do this. But I want to make a key point 
here. The ideology does not exist in a vacuum. We are fighting 
an organization that has embodied this ideology now, and it is 
seen to have embodied this ideology. If al-Qaeda is seen to 
succeed, the ideology will be seen to be successful. If al-
Qaeda is seen to be defeated, the ideology will be to a 
considerable extent discredited. And we really mustn't imagine 
that we can talk about the--and I know that you weren't 
suggesting this but--that we can talk about the ideology as 
distinct from its pragmatic, practical manifestation in the 
world today.
    Mr. Poe. Mr. Joscelyn?
    Mr. Joscelyn. Just real quick, one of the biggest looming 
issues for al-Qaeda, ideologically and otherwise, is the 
slaughter of their fellow Muslims around the world. More 
victims of al-Qaeda and their associated terror have been 
Muslims than Westerners or any other religion. That is 
generally who they kill. And that is a big problem that they 
have message-wise. What I have not seen is a unified purpose 
across the board, emphasize that everywhere we can, that 
understanding that their principal enemies are actually their 
fellow Muslims and not the West, on a day-to-day basis.
    Mr. Poe. Do you mind if I ask Dr. Hegghammer? Dr. 
Hegghammer?
    Mr. Hegghammer. So I think that today it is very difficult 
to undermine this ideological phenomenon because it is really 
several different things. It is not one coherent ideology, one 
coherent message that we can kind of pick apart with arguments. 
They want different things, these groups. And so it is very 
difficult to undermine it with a sort of information strategy. 
And maybe there was a time years back when there was a more 
coherent message that we could have targeted, but that is no 
longer the case.
    Mr. Poe. Thank you.
    I am going to now recognize Mr. Schneider from Illinois for 
5 minutes. And then we will go to Mr. Perry for 5 minutes from 
Pennsylvania. Go ahead.
    Mr. Schneider. Thank you.
    Dr. Hegghammer, you talked about Sinai and the 
concentration or increasing numbers of militants, operatives, 
terrorists gathering in Sinai. Where in Sinai are they 
gathering?
    Mr. Hegghammer. Well, I think Mr. Joscelyn may know more of 
the details here, but I suspect that most of the bases and sort 
of the armed casualties are up in the mountains, where the 
reach of the Egyptian police is limited.
    Mr. Joscelyn. It is the northern Sinai principally.
    Mr. Hegghammer. Northern Sinai, yes.
    Mr. Joscelyn. I think what Tom has said about the security 
forces, there are pressures from both Israel and security 
forces is right. My one big problem, concern there is that they 
have overrun security forces in places like Arish and 
elsewhere.
    Mr. Schneider. Right.
    Mr. Joscelyn. And they have also been able to mount limited 
attacks via rockets and elsewhere in Israel and that sort of 
thing. So you are going to see a pickup in the tempo there.
    Mr. Schneider. And that is kind of where I am going with 
the questions. I mean, we saw today I think three Egyptian 
police were killed in Sinai.
    Mr. Joscelyn. Yes.
    Mr. Schneider. They are having an increasing freedom of 
movement, but that mountainous area is a difficult area. 
Between the--I don't know if we call it a nascent government 
emerging in Egypt and Israel and U.S. support for both of them, 
what strategy should we be taking there to make sure that al-
Qaeda doesn't get another foothold in Sinai?
    Mr. Joscelyn. Well, we certainly have to support. This is a 
tough situation because you have the politics of the whole 
thing and then you have the security concerns of the whole 
thing.
    Mr. Schneider. Right.
    Mr. Joscelyn. And oftentimes they can conflict. But we 
certainly have to support some measures security-wise from the 
Egyptian regime against the al-Qaeda presence there just 
because it is a growing presence and it is going to be a threat 
to our interests around the region. Again, the big problem is 
balancing that with our other interests inside Egypt.
    Mr. Schneider. Dr. Hegghammer, any thoughts on that?
    Mr. Hegghammer. I think I would concur with that pretty 
much exactly. It is a trade-off between, well, democracy in 
Egypt and security in Egypt. So it is a political issue. Where 
is that balancing point? You can't have both at this point.
    Mr. Schneider. I would posit that the balancing point moves 
over time. We have to manage that process across time. I will 
turn to you, Dr. Jones, because it is a different world with 
the Internet where messages can go from Afghanistan or Pakistan 
across the entire Middle East and even into this country. What 
messages--I will open this to everyone--do you think we need to 
be communicating and working with our allies to help them 
communicate so that we can start to win the battle of hearts 
and minds as well as the battle on the ground?
    Mr. Jones. Well, I think part of this is providing forum 
for legitimate Muslim leaders with support networks to get 
their views out because when young impressionable kids because 
that is who many of them are, not all of them, are surfing 
through the Internet and that evolves into jihadist forums, 
they need a balance of views. I mean, ultimately this means 
giving a forum to legitimate individuals.
    If you take the example of solidarity in Poland during the 
Cold War, we didn't have to create anything. It was giving air 
to legitimate locals. I mean, this is I think what we are 
talking about now, legitimate moderate networks, giving them 
the space and the ability to air their views and to directly 
denounce al-Qaeda. One of al-Qaeda's most significant pushbacks 
over the last several years was Dr. Fadl in Egypt, who put out 
a book that denounced Ayman al-Zawahiri, led to huge fissures. 
That is the kind of stuff I think, letting that air, is quite 
useful.
    Mr. Schneider. Are there other names of people we should be 
watching or reaching out to in the Arab world that are in that 
sense the legitimate voice or a legitimate voice that can push 
back on the message of al-Qaeda and other groups like that?
    Mr. Jones. There is a whole range of people, sure. There is 
a whole range of people across Egypt, across Saudi Arabia. I 
can push you names of individuals that have outright denounced 
Osama bin Laden's and Ayman al-Zawahiri's vision of Islam as 
un-Islamic, yes.
    Mr. Schneider. So if it is not prohibited, if you could 
give it to us, that would be helpful. So I would welcome those 
names.
    Dr. Kagan, you look like you have something to add or----
    Mr. Kagan. Just to testify to what Seth is saying, having 
seen it on the ground, as I said, in Afghanistan, the 
effectiveness of this. There were times when those Jordanian 
preachers were preaching and there were Taliban in the audience 
who were asking them questions and getting confused because 
they weren't winning the arguments. Afghanistan, you know, 
there is a highly illiterate population. It is easy to mislead 
them. In Egypt where it is more cosmopolitan, it is harder.
    But giving voice to the people who will make these 
arguments and especially, as Seth says, in the areas, like in 
Saudi Arabia, like in Jordan, where they has been very 
effective deradicalization programs, we should be building on 
that. We should be helping them to build on it. And we should 
be asking them what we can do to help them build on it because 
it is their interest as well.
    Mr. Schneider. So if I can just take one more second? I 
think that is critical. I think those are the types of sorts of 
investments we can make with a very high return on investment. 
So I appreciate it. Again, I thank you all for your time.
    Mr. Poe. Thank you for your questions. The chair will now 
recognize Mr. Perry from Pennsylvania.
    Mr. Perry. Thanks, Mr. Chairman.
    Thanks again, gentlemen. I am interested in your 
perspective of al-Qaeda's influence in the camps, the refugee 
camps that have become somewhat like cities in Jordan, and what 
we can look forward to in the near future or the further term 
as Syria grinds on.
    And then I would like--why don't we do that and then see 
how much time we have left to talk a little strategy.
    Mr. Jones. Just very briefly, Jabhat al-Nusra has recruited 
fighters out of camps, refugee camps, in Lebanon, has recruited 
individuals out of Jordan, and has recruited individuals, in 
particular, out of camps in Turkey. So it is a great way for 
these organizations to recruit, gain some funding, but also to 
gain intelligence about pipelines. In fact, it is worth noting 
that the most significant pipeline of fighters moving into 
Syria right now is through Turkey, which is a NATO country. And 
so in that sense, there has been a lot of recruitment in 
Turkey, in particular.
    Mr. Perry. Did you have something you wanted to add, Mr.--
--
    Mr. Joscelyn. Just real quick. That is right. In fact, the 
al-Qaeda and Iraq network that sort of Jabhat al-Nusra has 
built itself off of includes very prominent figures in Jordan 
who do that recruiting. And they have been doing that 
recruiting since back in your days when you were deployed in 
Iraq. It is some of the same network guys sending fighters into 
Syria today, including a guy that goes by the nom de guerre 
Arab Usa Yef. He is very prominent in doing that. So it is very 
much in that regard the same type of enemy you face in Iraq.
    Mr. Perry. So, then, do we need to be concerned about not 
only recruiting in the camps and transitioning across 
geographical boundaries but influence in those nation states 
where the camps are in Turkey and Jordan and what that 
portends? Do we need to be concerned or not? And how much?
    Mr. Jones. I think we absolutely need to be concerned. We 
also need to be concerned about the spill over of violence into 
several of these countries. Jordan, Turkey, and Lebanon, in 
particular, are three areas where there is a possibility not 
just of initial recruitment or additional recruitment but also 
the spill over of violence, not just sectarian violence, 
although that is part of it. But yes, this is the potential for 
regional spill over.
    Mr. Hegghammer. If I can add that I agree completely that 
there is a very distinct risk of spill over? They are not 
entirely sure whether the refugee camps should be the main 
concern here. After all, these are people who have left the 
conflict. So they have taken the decision not to join it. And 
if you look back at Iraq, hundreds of thousands of people left 
Iraq at the height of the conflict. And they produced 
relatively little spill over in the region. There are certainly 
examples, but, you know, compared to the scale of the exodus, 
the security implications were not all that large.
    So, you know, in the best scenario, you get something 
similar from Syria, but I think we should keep an eye on sort 
of multiple ways in which the spill over can happen, not just 
the refugee camps.
    Mr. Perry. And maybe rightly or wrongly, I just see the 
camps as somewhat large, sprawling, lawless, almost cities at 
this point, without government structures and so on and so 
forth, that lend themselves to that type activity. I guess, on 
the other side of the equation, they lend themselves to our 
ability to be involved and be present and gather intelligence 
and so on and so forth. I just wonder how acute the threat may 
be.
    If we could move on, regarding the previous line of 
questioning, the strategy that the United States should take 
regarding our pseudo-allies, like Qatar, like Kuwait, who will 
have actors within that will be willing to fund--and that is 
really I think hard for their government or us to influence. 
But the state itself, if the states themselves, are sponsoring 
through funding, what should be our strategy? I know it is a 
delicate circumstance, but what would you folks think should be 
our best plan for that?
    Mr. Kagan. You know, I want to make it clear that I have 
seen reports that there is Kuwaiti funding and so forth, but I 
am not sure exactly who or what. And it is something that I 
think merits looking into. And I was surprised by that, 
candidly. I would not have expected that. And so my first 
suggestion would be getting to the bottom of whether that is 
true or not and why that is being tolerated in a state like 
that, where there is a much greater ability of the family to 
influence that kind of thing.
    Qatar is an entirely different problem because Qatar 
maintains its sort of balancing position between Saudi and Iran 
and us and with Al Jazeera and with al-Qaeda. They have a new 
emir. He is a young guy. It may conceivably be possible to help 
him see the light some more and help him understand that the 
policies he has been pursuing have not been helpful to him in 
the region, which is, in fact, true.
    Mr. Perry. Thank you, Mr. Chairman. I will yield.
    Mr. Poe. Thank you.
    Gentlemen, I can't tell you how much I appreciate you being 
in here because we rely on you guys, the experts, to inform us 
so that we can help influence foreign policy. And if you can 
bear one more questions? It is a three-part question. It will 
be real quick. What role should the U.S. play in Syria? To what 
capacity? And would it stabilize or destabilize that region 
more, you know, with the spill over into Jordan, the threat to 
Israel, you know, in that whole area? And if you can just say 
what your thoughts are on that briefly, I would greatly 
appreciate it. Go ahead, Dr. Jones.
    Mr. Jones. I think the U.S. role in Syria should be to 
support the overthrow of the Assad regime. I think it is in 
U.S. interests. I do think one has to be very careful about how 
one does that and who one is providing both lethal and non-
lethal assistance to, but I think this is a covert, clandestine 
war. This is really one that is done by the U.S. intelligence 
community and special operations forces. And I think if it is 
not done, we will not be able to influence the end results, 
none of which will be in our interest.
    Mr. Poe. Okay. Dr. Kagan?
    Mr. Kagan. I agree with that. I think this is not a case 
where putting a lot of U.S. boots on the ground is wise. And I 
would not advocate for that. I am not sure that our role can be 
entirely clandestine. I think that there may be a requirement 
to do damage to the Syrian ability to use its airfields to 
receive critical supplies from Iran and other places and also 
to conduct operations.
    I do not think that a full no-fly zone would be necessary 
at this point. I think there is much more nuance in that 
discussion than we have had so far in what kinds of tools we 
could apply beyond covert aid to assist. But I think it is 
absolutely vital because I think that all of the trend lines 
are that the longer this conflict goes in the way that it is 
going, the more destabilizing it will be, the more spill over 
there will be, and the more damage to American interests and 
security there will be.
    Mr. Poe. Mr. Joscelyn?
    Mr. Joscelyn. Just real quick, in terms of sponsoring the 
Syrian opposition, I am for it as long as we have a very good 
idea of how our enemies are constituted and what groups they 
are working with.
    Mr. Poe. Right.
    Mr. Joscelyn. They can't co-opt them. That is a very 
difficult black box a lot of times. Obviously that is why we 
are still talking about it, you know.
    As far as destabilization, it is already about as 
destabilized as it can get. And I can't see it getting any 
better absent U.S. intervention or intervention from the 
outside world. That doesn't mean boots on the ground, but 
definitely it is a destabilizing factor.
    And, lastly, just real quick, there has already been a 
threat to this to U.S. interests out of Syria, which it needs 
to be highlighted more often, which is that last year the 
Jordanian regime, the kingdom, shut down a plot, a very 
complicated plot, to attack the U.S. Embassy that involved 
staging attacks against other targets to sort of build up to a 
massive attack on the U.S. Embassy. You are already seeing that 
type of spill over. And those were Jabidah, and those were 
trained fighters throughout the region.
    Mr. Poe. Doc?
    Mr. Hegghammer. My view is that the U.S. should provide 
weapons to the moderate part of the Syrian opposition, but it 
should also do two things. One is to make absolutely clear to 
the Syrian opposition how much support they can expect to get 
because the biggest problem with providing a little bit of 
support is that you can get drawn in. You have the sort of 
slippery slope phenomenon. And so you can maybe see part of the 
Syrian opposition taking risks that they otherwise wouldn't 
take because they think they have the American support. So, 
then, you know, if you provide a little, then make absolutely 
clear where the line goes. Make sure to communicate that this 
does not mean that there is more to follow in case there is a 
crisis.
    The other thing that is crucial is to prepare for the civil 
war that comes after the fall of Assad. There will be one. And 
it will be crucial to plan for that and to distribute the 
resources with that conflict and the constellations in that 
conflict in mind.
    Mr. Poe. Gentlemen, again I appreciate it. I know the 
members of this committee appreciate it and Congress 
appreciates your expertise in being here. And thank you.
    This subcommittee is adjourned.
    [Whereupon, at 4:11 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      <F-dash>\<n-iden-3><pound><box> stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
